HHS/OIG-Audit--"Review of Missouri Claims for Training Costs, (A-07-95-01008)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Missouri Claims for Training Costs," (A-07-95-01008)
February 21, 1996
Complete Text of Report is available in PDF format
(99 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report discusses the allowability of training costs claimed by the
Missouri Department of Social Services (State) under Department of Health and
Human Services (HHS) programs. This review covered the period July 1, 1991 through
June 30, 1994. Generally, we found that costs for training were allowable as
claimed. However, with respect to training for title IV-E Foster Care, the State
claimed excess reimbursement totaling $217,408. The State did not allocate all
of the direct foster care costs to the benefitting State foster care program.
In addition, we found that Missouri's approved Cost Allocation Plan (i) included
a sampling methodology that allocated costs only to foster care when in fact
the costs benefitted several program and (ii) allowed indirect costs to be claimed
at 75 percent FFP that were only allowable for 50 percent FFP. We recommended
that the State refund unallowable costs and establish procedures to ensure only
allowable costs are claimed at the enhanced FFP rate.